         OFFICE OF THE INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Security Configuration and
       Monitoring of EPA’s Remote Access
       Methods Need Improvement

       Report No. 2005-P-00011

       March 22, 2005
Report Contributors:	              Rudolph Brevard
                                   Teresa Richardson
                                   Cheryl Reid
                                   Vincent Campbell
                                   William Coker




Abbreviations

EPA          Environmental Protection Agency
NTSD         National Technology Services Division
OIG          Office of Inspector General
OTOP         Office of Technology Operations and Planning




Cover Photo: A BlackBerry wireless handheld device (EPA OIG photo)
                         U.S. Environmental Protection Agency                                              2005-P-00011

                         Office of Inspector General                                                      March 22, 2005





                         At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review
                                        Security Configuration and Monitoring of EPA’s
We sought to determine whether          Remote Access Methods Need Improvement
the Environmental Protection
Agency’s (EPA’s) remote access           What We Found
methods, particularly through
Web-Mail servers and                    System administrators did not configure EPA’s Web-Mail and BlackBerry
BlackBerry servers and devices,         servers to provide secure remote access to the Agency’s network. We found
have adequate controls to prevent       that the system administrators did not configure or update 59 percent of the
abuse or unauthorized access to         Web-Mail and BlackBerry servers to mitigate vulnerabilities. Consequently,
the Agency’s information                confidentiality and integrity of EPA data, as well as the availability of the
resources.                              network, is at risk of unintentional or intentional exploitation. The weaknesses
                                        occurred because management did not implement processes to exercise proper
Background                              oversight and provide detailed configuration settings.

Remote access is the connecting         We also found several of the Agency’s BlackBerry devices were not adequately
to EPA's data communications            configured, secured, or monitored. We found devices that had no password
network from alternate locations        enabled or had functionality that would allow users to disable passwords. We
not directly connected to the           also observed devices left unattended in workstation cubicles. An unauthorized
network. EPA establishes the            user of an unprotected handheld device has the potential to negatively affect the
security policy for the national        integrity and confidentiality of EPA information. These weaknesses occurred
data communications network             because management did not conduct a risk assessment or establish a process to
and basic controls to ensure a          consistently install BlackBerry devices.
secure infrastructure. Two key
methods of attaining remote              What We Recommend
access are through an internet
browser via Web-Mail or through         We made seven recommendations to the Director of EPA’s Office of
a BlackBerry, which is a wireless       Technology Operations and Planning. They included establishing and
handheld device.                        requiring all remote access systems to have security monitoring and network
                                        vulnerability scanning; developing standards that define authorized open ports
For further information,
contact our Office of                   and services for the Web-Mail and BlackBerry servers’ Operating System; and
Congressional and Public Liaison        conducting a risk assessment and establishing a process to consistently
at (202) 566-2391.                      configure devices. The Agency generally agreed with the recommendations
                                        and indicated corrective actions that, when implemented, would address the
To view the full report, click on the
following link:
                                        recommendations.

www.epa.gov/oig/reports/2005/
20050322-2005-P-00011.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL



                                         March 22, 2005

MEMORANDUM

SUBJECT:              Security Configuration and Monitoring of EPA’s Remote Access Methods
                      Need Improvement
                      Report No. 2005-P-00011

FROM:                 Eric Lewis /s/
                      Acting Director, Business Systems Audits (2421T)

TO:                   Kim T. Nelson
                      Assistant Administrator for Environmental Information
                      and Chief Information Officer (2810A)


This is our final report on the remote access methods audit conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). This audit report contains
findings that describe problems the OIG has identified and corrective actions the OIG
recommends. This audit report represents the opinion of the OIG, and the findings in this audit
report do not necessarily represent the final EPA position. EPA managers in accordance with
established EPA audit resolution procedures will make final determinations on matters in this
audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response within
90 calendar days of the date of this report. You should include a corrective action plan for
agreed upon actions, including milestone dates. We have no objection to further release of this
report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact the Assignment
Manager, Rudolph Brevard, at (202) 566-0893, or me at (202) 566-2708.
                                 Table of Contents 

At a Glance


Chapters
   1   Introduction ...........................................................................................................      1         


               Purpose ..........................................................................................................    1                 

               Background ....................................................................................................       1                 

               Scope and Methodology.................................................................................                2                 

               Results in Brief ...............................................................................................      2                 


   2   Protection of Web-Mail and BlackBerry Servers Needs Improvement ...........                                                   3         


               Servers Not Configured to Provide Security...................................................                         3

               Oversight Processes Needed for Remote Access Servers ............................                                     3

               Detailed Configuration Parameters Needed...................................................                           4                 

               Recommendations .........................................................................................             4                 

               Agency Comments and OIG Evaluation.........................................................                           5


   3   BlackBerry Devices Need Improved Security Controls.....................................                                       6         


               BlackBerry Devices’ Password Settings, Physical Security,
                   and Monitoring Not Adequate..................................................................                     6

               EPA Has Not Conducted a Risk Assessment for BlackBerry Devices ...........                                            6

               Recommendations .........................................................................................             7             

               Agency Comments and OIG Evaluation.........................................................                           7




Appendices
   A   Federal and Agency Criteria.................................................................................                  9         


   B   Agency Response to Draft Report.......................................................................                       11 


   C   Distribution ............................................................................................................    13     

                                Chapter 1
                                Introduction
Purpose
          Our objective was to determine whether the Environmental Protection Agency’s
          (EPA’s) remote access methods provide adequate controls to prevent abuse or
          unauthorized access to the Agency’s information resources. Specifically, we
          determined whether remote access points are effectively configured and
          adequately secured.

Background

          EPA defines “remote access” as connection to the Agency’s systems from an
          alternate location not directly connected to the network. EPA allows employees
          or contractors who have legitimate business requirements to connect remotely to
          systems. Additionally, EPA allows the public to connect to various data systems
          on its internal and public networks. To provide security, EPA implemented a
          robust network defense infrastructure, which includes intrusion detection systems,
          firewalls, and routers. These defenses, in general, provide adequate security to
          prevent intruders from exploiting the Agency’s network.

          The Office of Technology Operations and Planning (OTOP), within EPA’s Office
          of Environmental Information, is responsible for establishing the Agency’s policy
          for the national data communications network and basic controls to ensure a
          secure network infrastructure. OTOP’s National Technology Services Division
          (NTSD) is responsible for managing EPA's network and for providing a capability
          to access systems remotely, as well as implementing the policies and standards for
          network security and publishing standards for remote access server configuration.

          Configuration management of security controls over remote access servers is
          essential to mitigate disruption to business processes due to increased external
          connections. Based on a 2004 Office of Environmental Information survey, over
          9,000 users connect to EPA’s network using various methods of remote access.
          This many remote access connections increase the chances of intentional or
          unintentional exploitation of the Agency’s network and the supporting servers.

          Two key methods EPA uses to support remote access include:

             	 Web-Mail, which allows users to connect to their electronic mail accounts
                via an Internet browser.

             	 BlackBerries, which are wireless handheld devices that allow personnel
                to send, receive, and read electronic mail.


                                           1

Scope and Methodology
           We conducted our field work from June 2004 to December 2004 at EPA
           headquarters in Washington, DC; the National Computer Center, Research
           Triangle Park, North Carolina; and several regional offices. We interviewed
           Agency and contract personnel at various locations. We reviewed a variety of
           Federal and Agency criteria, summarized in Appendix A. This audit was
           conducted in accordance with Government Auditing Standards, issued by the
           Comptroller General of the United States.

           To select the remote access methodologies to review, we conducted vulnerability
           testing to determine those methods with significant vulnerabilities, and
           determined there was a need to review the Web-Mail and BlackBerry methods.
           We did not review other methods that we determined had limited vulnerabilities
           or we recently reviewed.

           We reviewed the configuration management and security controls surrounding the
           Web-Mail and BlackBerry servers and devices. We provided the vulnerability
           test results to NTSD, and management has implemented a process to mitigate all
           identified vulnerabilities.

Results in Brief
           System administrators did not configure EPA’s Web-Mail and BlackBerry servers
           to provide secure remote access to the Agency’s network. Our vulnerability
           testing results identified that system administrators did not configure or update
           59 percent of the servers to mitigate vulnerabilities. These weaknesses occurred
           because management had not implemented processes to exercise proper oversight
           or provide detailed configuration settings to secure remote access servers. As a
           result, the confidentiality and integrity of EPA’s data and the availability of the
           network was at risk of unintentional or intentional exploitation. Also, the Agency
           did not consistently configure, secure or monitor several of the BlackBerry
           devices. Devices did not have passwords enabled or had functionality that would
           allow users to disable passwords. We also observed devices left unattended in
           workstation cubicles.

           We made seven recommendations to EPA to correct deficiencies noted.
           EPA generally agreed with most of the recommendations in our report, but
           disagreed with the recommendations for conducting a formal risk assessment and
           establishing a security policy for the BlackBerry devices. Furthermore, the
           Agency suggested language changes and, in some cases, we modified the report.
           The Agency’s comments and our evaluation are detailed in the following
           chapters. We included EPA’s complete response as Appendix B.




                                            2

                                 Chapter 2
    Protection of Web-Mail and BlackBerry Servers
                  Needs Improvement
          EPA did not appropriately configure its Web-Mail and BlackBerry servers to
          provide secure remote access to the Agency’s network. We found that system
          administrators did not configure or update 59 percent of the Web-Mail and
          BlackBerry servers to mitigate vulnerabilities. Federal and EPA policy establish
          requirements for monitoring information resources and ensuring security is
          commensurate with risks. The weaknesses noted occurred because management
          did not implement processes to exercise proper oversight or provide detailed
          configuration settings to secure remote access servers. As such, confidentiality
          and integrity of EPA data, as well as the availability of the network, is at risk of
          unintentional or intentional exploitation; intruders could exploit the servers and
          attack systems inside and outside EPA.

Servers Not Configured to Provide Security
          EPA did not adequately configure its Web-Mail and BlackBerry servers to
          provide security. Our vulnerability testing identified that 19 of the 32 servers, or
          59 percent, were not: (1) configured with the proper security settings, or
          (2) updated with the latest security patches and/or necessary updates to protect
          them from actual and potential threats. In particular, we identified 56 high and
          medium risk vulnerabilities on EPA’s Web-Mail and BlackBerry servers related
          to unapplied patches and/or upgrades. High and medium risk vulnerabilities can
          enable an intruder to: (1) access restricted data, (2) browse the remote web server
          for account information, and (3) exploit a program with known weaknesses to
          gain control of the system.

Oversight Processes Needed for Remote Access Servers
          EPA has not implemented processes to exercise oversight over the Web-Mail and
          BlackBerry remote access servers. EPA Order 2195.1 A4, Agency Network
          Security Policy, establishes the overall requirement for oversight and monitoring
          of information and computing resources. We found EPA has not assigned
          responsibility for implementing processes to independently verify and validate
          that these servers comply with Agency policies and standards. NTSD has
          established an E-mail platform manager position, responsible for developing
          system standards, policies, and procedures for the Agency’s electronic mail
          methods, which include Web-Mail and BlackBerry. However, the platform
          manager is not involved in: (1) establishing new servers, or (2) approving servers’
          access through the Agency’s firewall. Although NTSD conducts monthly
          security reviews of the servers, the platform manager reviews reports for selected


                                            3

          centrally managed Web-Mail and BlackBerry servers only and relies on program
          and regional offices to provide oversight on distributed servers.

          EPA has not implemented a comprehensive security-monitoring program that
          includes all remote access servers. NTSD has implemented a monthly security-
          monitoring program to evaluate server’s compliance with EPA’s standards and
          forwards the results to senior Agency officials. These results report NTSD’s
          monthly security status as “Green,” but only 18 percent of the servers (7 of 38)
          are included in this assessment. Further, security monitoring occurs on a
          voluntary basis and managers are not required to participate in the program.

          EPA’s security monitoring software is not effective in discovering all
          vulnerabilities. EPA uses a commercial-off-the-shelf software program to
          monitor servers for compliance with NTSD standards and common security
          configuration practices. This software does not scan for computer security
          industry-identified threats. Our vulnerability scanning results indicated that three
          of the five servers monitored by the Agency contained at least one “high-risk”
          vulnerability. Further, interviews with several System Administrators disclosed
          that they do not perform the regular scanning required by Agency policy.

Detailed Configuration Parameters Needed
          We noted 190 instances where servers transmitted low level, but sensitive,
          information regarding: (1) server configuration, (2) possible entry points available
          on the server, and (3) Operating System-specific information that should not be
          available to users. NTSD published the Standard Configuration Document, which
          defines the minimum configuration and security requirements for single purpose
          servers and requires system administrators to open only authorized ports and
          services necessary for operation. However, NTSD has not defined which ports
          and services that system administrators should open. A port is a logical
          connection place dedicated to a specific software program, while a service is a
          software program assigned a designated port. For example, an Internet Browser,
          a service, uses port 80 to communicate with servers to retrieve web-site
          information.

Recommendations

          We recommend that the Director, Office of Technology Operations and Planning:

          2-1 	   Establish processes and assign accountability for independently verify
                  and validate that Web-Mail and BlackBerry servers comply with
                  published EPA policies and standards.

          2-2 	   Develop and implement a security-monitoring program that includes
                  testing all servers, and require all system administrators to register their
                  servers with NTSD and participate in the security-monitoring program.


                                             4

         2-3 	   Expand the Agency’s security-monitoring program to include using a
                 variety of network vulnerability scanning tools to monitor registered
                 servers.

         2-4 	   Establish and implement a process to ensure program and regional offices
                 conduct regular security monitoring that includes vulnerability scanning.

         2-5	    Develop and publish standards that define authorized open ports and
                 services for the Web-Mail and BlackBerry servers’ Operating System.

Agency Comments and OIG Evaluation
         OTOP’s Director for Technical Information Security Staff concurred with our
         recommendations. We are encouraged that OTOP plans a proactive approach to
         improve its compliance oversight and vulnerability management capabilities. In
         addition, OTOP indicated that it is expanding its monitoring oversight to include
         other Agency-supported platforms. In our view, the corrective actions planned
         are appropriate and, when fully implemented, will adequately address the
         recommendations. Furthermore, in the response, the Agency suggested revised
         wording and we modified the report accordingly.




                                          5

                                Chapter 3
BlackBerry Devices Need Improved Security Controls
          Several of EPA’s BlackBerry devices were not adequately configured, secured, or
          monitored. Specifically, we found devices that had no password enabled or had
          functionality that would allow users to disable passwords. We also observed
          devices left unattended in workstation cubicles. Further, EPA did not monitor the
          level of sensitivity for information transmitted or stored on BlackBerry devices.
          These weaknesses occurred because management did not conduct and document a
          risk-based assessment, or establish a process to ensure consistent configuration of
          BlackBerry devices. As such, an unauthorized user of an unprotected device
          could negatively affect the integrity and confidentiality of EPA information.

BlackBerry Devices’ Password Settings, Physical Security, and
Monitoring Not Adequate
          BlackBerry devices did not have required password settings to secure them from
          unauthorized use. EPA published the BlackBerry Standard Configuration
          Document to give program and regional offices a consistent method to configure
          BlackBerry devices. We selected a random sample of headquarters users located
          within five program offices and checked implemented password configurations.
          However, we found that four of the nine devices did not have a password enabled,
          or had functionality that would allow users to disable passwords.

          During our office area review and interviews with Agency officials, we noted
          several security concerns regarding BlackBerry devices. We observed devices
          left unattended in workstation cubicles, which subjected the devices to theft and
          EPA data to compromise. EPA also had not determined the level of sensitivity
          for information transmitted or stored on the devices, nor did the Agency analyze
          or monitor the data records to determine whether users transmitted sensitive
          information. Although the National Institute of Standards and Technology
          published guidelines that agencies can use to secure their wireless devices, we
          noticed many of these practices were not in place. The small size and mobility of
          BlackBerry devices make them more likely to be stolen, misplaced, or lost. As a
          result, these small and mobile devices are vulnerable to theft and subsequent
          misuse by a potential intruder.

EPA Has Not Conducted a Risk Assessment for BlackBerry Devices
          EPA did not identify strategies to mitigate potential risks and threats that
          BlackBerry use posed for the EPA computing environment. Specifically, NTSD
          did not conduct and document a risk assessment before allowing the Agency to
          introduce the devices into the EPA computing environment. Our interviews


                                           6

         disclosed instances where NTSD needed improved managerial controls to protect
         the computing environment. For example, if an existing user requests a transfer
         of their BlackBerry account to a new device, management could not tell if the old
         device had been lost (or stolen), broken, or simply retired because the inventory
         records do not capture that information. Therefore, EPA does not know whether
         unauthorized persons have access to those BlackBerry devices and whether those
         devices contain sensitive data. Additionally, EPA had not established a process to
         ensure consistent configuration of BlackBerry devices. For the program offices
         reviewed, the Agency’s BlackBerry Standard Configuration Document was not
         used to install these devices.

Recommendations
         We recommend that the Director, Office of Technology Operations and Planning:

         3-1 	   Conduct and document a risk assessment using a risk-based approach that
                 includes accessing a device’s password and disabling function, physical
                 security, and data sensitivity, and implement corrective and/or mitigative
                 control procedures.

         3-2 	   Establish a procedure to ensure program offices use the BlackBerry
                 Standard Configuration Document to configure all devices. Specifically,
                 this procedure should address validating installation requirements of a
                 device’s security settings and users’ security responsibilities. The
                 procedure should also address the handling of lost, stolen, and discarded
                 devices.

Agency Comments and OIG Evaluation

         OTOP did not agree with our recommendation to conduct a formal risk
         assessment of the BlackBerry computing environment, asserting that a formal
         assessment would not be cost effective and produce additional findings beyond
         those already known. We subsequently held an Exit Conference to discuss this
         issue with the Agency. We expressed our agreement that the Agency should use a
         cost effective risk assessment methodology to make the most efficient use of its
         resources. We reiterated our concerns that the Agency had not conducted a risk
         assessment and that it should document the security controls surrounding the
         BlackBerry computing environment to give management better information to:
         (1) secure its systems, (2) justify expenditures as part of the budget process, and
         (3) assist in authorizing the system for operations. OTOP concurred with our
         approach and we modified the report and recommendations to clarify our position.

         In addition, OTOP did not concur with our recommendation that the Agency
         establish a security policy for the BlackBerry. OTOP believes such polices
         already exist within the framework of the Agency’s Network Security Policy.
         The OIG agrees that sufficient policy exists. However, we believe the Agency


                                          7

should give clearer guidance to the program and regions offices regarding
configuration requirements and users’ security responsibilities. We modified the
report and recommendations to clarify our position.




                                8

                                                                                    Appendix A

                        Federal and Agency Criteria
The Clinger - Cohen Act states that the Chief Information Officer has primary responsibility for
monitoring the Agency's information technology program performance, through monitoring and
evaluation against the Agency's applicable performance measurements.

The E-Government Act provides a comprehensive framework for ensuring the effectiveness of
information system security controls, and provides a mechanism for improved oversight of
Federal agency information security programs. The Act directs the head of each Federal agency
to provide information security protection commensurate with the risk and magnitude of the
harm resulting from unauthorized access, use, disclosure, disruption, modification, or destruction
of information.

National Institute of Standards and Technology (NIST) Special Publication 800-48,
Wireless Network Security: 802.11, Bluetooth and Handheld Devices, states that Information
Security Officers and Network Administrators should conduct a risk assessment before handheld
devices are introduced into the Agency’s computing environment. Moreover, network
administrators should establish and document security policies that address their use and the
users’ responsibilities. The policy document should include proper password selection and use.
Handheld devices should have security settings that comply with the Agency’s security policy
prior to distribution.

EPA Order 2195.1 A4, Agency Network Security Policy, requires network security to be
managed as a mission-critical activity in accordance with risk management principles. The
policy requires oversight monitoring to be conducted for potential and actual threats to the
network and Agency information and computing resources. Systems attached to the network
must be certified as compliant with the standards and/or procedures outlined in the policy. It
also requires that general support systems and/or major application managers conduct and update
risk assessments at least every 3 years or whenever a substantive configuration change occurs.
Configurations and settings of network-attached resources must (1) be tested by the responsible
information system manager prior to implementation; (2) be documented; and (3) conform to
Deputy Chief Information Officer for Technology approved procedures and standard
configurations based on user business requirements, published security vulnerabilities, and best
industry security practices. The policy requires EPA data communications network resources be
documented, monitored, tested, evaluated, and verified to ensure adequate security in accordance
with information sensitivity and other Federal and Agency requirements.

EPA’s Operating System Standard Configuration Document requires all servers connected to
the EPA network to be monitored for security compliance and vulnerabilities. The standard
requires all servers connected to any part of the network to comply with this document.
Furthermore, it requires system administrators to only open ports required for operation.




                                                9

EPA’s BlackBerry Standard Configuration Document states that several default settings must
be set up on each BlackBerry handheld device used at EPA. The document sets defaults for
desktop and BlackBerry synchronization and ensures that the device’s configuration complies
with EPA security policies. The document requires program and regional offices to enable
passwords and to remove the option that would allow users the ability to disable password
security.




                                            10 

                                                                                  Appendix B

                  Agency Response to Draft Report

                                        March 14, 2005

MEMORANDUM

SUBJECT: 	    OEI Response to Draft Audit Report: “Security Configuration and Monitoring of
              EPA’s Remote Access Methods Needs Improvement” Assignment No. 2004
              000739

FROM: 	       George Bonina /s/
              Senior Agency Information Security Officer and
              Director, Technical Information Security Staff
              Office of Technology Operations and Planning (2831T)

TO: 	         Eric Lewis, Acting Director
              Business Systems
              Office of Inspector General (2421T)

Thank you for the opportunity to review and comment on this draft report. Mark Day has
delegated to me the responsibility for responding to the audit.

This audit highlighted areas where OEI can improve administration of the Agency’s remote
access methods. We offer the following comments on the draft report:

•	 OTOP is aggressively improving its Agency-wide network compliance monitoring and
   vulnerability management capabilities. For compliance monitoring, OTOP is deploying the
   Bindview tool as EPA’s compliance management standard and expanding management
   scorecards to include all major platforms. For vulnerability management, OTOP is in the
   final stages of identifying a vulnerability management standard and selecting a tool. For
   patch management, OTOP is completing Agency-wide implementation of PatchLink.

   These tools will provide Agency system managers with the ability to better-manage their
   network-attached devices, as well as provide OTOP with independent oversight capability.
   These tools will address most of the findings and recommendations identified in the report.

•	 OTOP is responsible for monitoring Agency-wide compliance with standards. OTOP
   currently monitors Netware Agency-wide and is adding other platforms. As our security
   program matures we are extending our Agency-wide monitoring oversight to all platforms.

•	 The stated findings indicate that the E-mail platform manager does not review monthly
   security reports. This finding should more accurately state that the E-mail platform manager
   does currently review monthly compliance reports for all centrally-managed webmail servers


                                              11 

      only and relies on system administrators and information security officers in programs and
      regions for oversight of distributed webmail servers.

•	 Mobile devices present a risk challenge. However, mobile devices remain a vital component
   of EPA’s daily business. User surveys within EPA senior executive ranks report significant
   conversion of idle time to productive time when managing their email workload through
   mobile devices. The majority of senior executives report improved ability to respond to time
   sensitive messages when equipped with mobile devices. EPA has consciously accepted the
   risks, in light of the substantial returns in business opportunities.

•	 The BlackBerry Standard Configuration Document (SCD) sets defaults for desktop and
   handheld configurations in accordance with Agency policies and standards. Password
   enablement is among the default settings. While OTOP agrees that the inability to enforce
   passwords for mobile devices presents a risk, there currently is no automated means for
   detecting the absence of password enablement and locking of Blackberry handheld, or
   enforcing other standard configuration requirements. Future versions of Blackberry operating
   systems may implement such a capability.

•	 OTOP does not agree with the recommendation that it conduct a formal risk assessment of
   BlackBerry devices. OTOP does not believe a formal risk assessment targeting mobile
   devices will produce additional vulnerabilities and findings beyond those already known and
   understood. The technology is evolving to provide effective countermeasures to mobile
   device threats. Instead of investing in additional risk assessments, OTOP believes a more
   effective use of resources is to identify and test mitigation measures for known risks such as
   password enforcement.

•	 The Agency Network Security Policy requires that all devices connected to the network must
   conform to approved standards. Therefore a formal policy does exist. The issues raised in
   the audit are more related to the adequacy of approved standards and the ability to enforce
   standards on mobile devices, rather than whether there is a policy requiring compliance with
   standards.

We appreciate the efforts of your staff in conducting this audit and the opportunity to work
together to improve the security of the Agency’s IT assets. Please feel free to contact me at 202
566-0304 or via email if you have any questions.

cc:      M
         	 ark Day
         Melissa Heist
         Myra Galbreath
         Robin Gonzalez
         Bill Boone
         John Gibson
         Kim Farmer
         Karen Maher
         Rudy Brevard
         Teresa Richardson


                                                 12 

                                                                                 Appendix C



                                    Distribution
Office of the Administrator (1101A) 

Assistant Administrator for Environmental Information (2810A) 

Director, Office of Technology Operations and Planning (2831T) 

Director, National Technology Services Division (N229-01) 

Director, Technical Information Security Staff (TISS) (2831T) 

Chief of Security, National Technology Services Division (N276-01) 

Audit Coordinator, Office of Environmental Information (OEI) (2812T) 

Audit Coordinator, Technical Information Security Staff (2831T) 

Agency Followup Official (the CFO) (2710A) 

Agency Followup Coordinator (2724A) 

General Counsel (4010A) 

Associate Administrator for Congressional and Intergovernmental Relations (1301A) 

Associate Administrator for Public Affairs (1701A) 

Inspector General (2410)





                                             13 

